M E M O R A N D U M

To:       Brian Cartwright
          Jeff Risinger
          Diego Ruiz
          Linda Thomsen
          Peter Uhlmann

From: Walter Stachnik

Date:     February 8,2007

Re:       Enforcement Performance Management (Audit no. 423)


Attached is our audit report on Enforcement Performance Management. The report
reflects the comments we received on prior drafts.

We would appreciate receiving any additional comments you have concerning this
audit and the report. In particular, we would like to know whether you found the
audit useful. We also welcome any suggestions from you concerning how we could
improve future audits.

The courtesy and cooperation of you and your staff are greatly appreciated.

Attachment

Cc:     Joan McKown
        Darlene Pryor
        Jayne Seidman

        Rick Hillman, GAO
 ENFORCEMENT PERFORMANCE
       MANAGEMENT

                    EXECUTIVE SUMMARY
We reviewed the Division of Enforcement's (Enforcement) compliance with required
performance management procedures. Enforcement did not consistently perform
parts of the performance appraisal process, especially for new, reassigned and
detailed staff. Enforcement also did not consistently retain performance
documentation for the required time. The Commission's written policies and
procedures did not provide adequate guidance on certain requirements of the
performance management process and document retention requirements.
We are recommending that Enforcement ensure its supervisors perform all required
performance management steps and that the Office of Human Resources (OHR)
improve its written guidance and provide additional training. We are also
recommending that OHR issue guidance on retention of performance management
documents.
Enforcement management suggested that our findings are typical of the Commission
as a whole. The Executive Director indicated that the current performance
management program needs significant improvements and starting in fiscal year
2008, the Commission will adopt a new program to address its deficiencies.



 OBJECTIVES, SCOPE AND METHODOLOGY
Our objectives were to evaluate the Division of Enforcement's compliance with the
Commission's performance management policies and procedures and to determine
whether improvements were needed. We began the audit after learning that a
second-level supervisor prepared a n undated supplemental memorandum regarding
the performance of two employees the manager did not directly supervise.
Supplemental memoranda are not addressed in the Commission's policies and
procedures.
Our scope was limited to the Division of Enforcement's two most recent performance
management cycles (ending on April 30, 2006, and April 30, 2005, for most
employees and September 30, 2005, and September 30, 2004, for Senior Officers).
We interviewed Enforcement, OHR and other Commission staff. We also reviewed
written guidance and performance documentation and tested whether required steps
were completed and, if so, whether they were completed properly and timely.
Our judgment sample included 34 of the 440 (7.7%) eligible staff for the cycle that
ended on April 30, 2005, and 39 of the 421 (9.3%) eligible staff for the cycle that
ended on April 30, 2006. We believed that selecting a t least 30 staff from each
review cycle would be sufficient. In selecting this sample, we included several
categories of Enforcement employees in different grade levels and positions,
including experienced, probationary, detailed and reassigned employees,
supervisors, non-supervisors, and separated employees.'
Our judgment sample also included six of Enforcement's nine senior officers (SOs)
for the period sampled. Because there were so few SOs, we sampled the majority of
the SOs.
We chose our sample by relying on OHR data, which identified Enforcement staff by
several categories listed above. We also relied on Enforcement data identifylng
Enforcement headquarters staff. We verified whether the staff in our sample were
actually in the category assigned by OHR, but we did not perform this verification
for staff outside our sample.
We conducted this audit from July 2006 to October 2006 in accordance with
generally accepted government auditing standards. These standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence that
provides a reasonable basis for our findmgs and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.2




The Commission changed its Performance Management program in 2003, giving
employees an opportunity to increase their salary based on their performance.
According to the Commission's written policies and procedures,3 the objectives of the
Commission's performance management program are to:
       1) Establish fair and equitable performance expectations and goals that are
          tied to improving organizational effectiveness in the accomplishment of the
          agency's mission and goals;
       2) Encourage and facilitate communication between supervisors and
          employees;
       3) Effectively evaluate employee performance, identifylng strengths and
          weaknesses; and
       4) Provide a mechanism to address deficient performance effectively.




1
  We planned to select staff who were on a Performance Improvement Plan (PIP), but no
Enforcement staff were on a PIP during the two review cycles included in our sample.
2
  OIG Audit and Inspection Manual, page 15.
3
  Issued through a memorandum to all employees from Jayne L. Seidman, dated May 2003.

ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                       FEBRUARY 8,2007
Performance Appraisal Period
The performance appraisal period for most employees is from May 1through April
30 of the following year. If an employee begins employment near the end of the
appraisal period, the performance appraisal period may be adjusted.
The appraisal process is documented on Commission Form 2494 for non-supervisory
staff and Form 2495 for supervisory staff (see appendices 1 and 2). These forms
contain three parts:
       1) Performance Planning;
       2) Monitoring and Feedback; and
       3) Evaluation.
An employee must have worked a minimum of 120 days to receive a performance
rating under an established performance plan.
Performance Planning
At this stage, the supervisor and the employee meet to discuss the performance plan,
expectations about what is to be accomplished, and the performance level to be
achieved by the employee over a given period of time.
A supervisor should provide a performance plan to a n employee within 30 days of
the beginning of the performance appraisal period or the employee's assumption of a
new position. The supervisor is responsible for assuring the employee understands
the Commission's performance standards. The Commission has established four
performance elements that apply to non-supervisory staff and eight performance
elements that apply to supervisory staff. The supervisor and employee must sign
and date the performance plan (Form 2494 or 2495) to acknowledge their discussion.
Monitoring a n d Feedback
During this stage, the supervisor consistently measures performance and provides
ongoing feedback to the employee. The supervisor and the employee are to maintain
a n ongoing dialogue regarding what accomplishments are expected of the employee.
Additionally, on a n ongoing basis, the supervisor must discuss any deficient
performance with a n employee, and explain what the employee must do to improve
performance to a n acceptable level. According to Commission policy, this discussion
should take place a s soon a s possible after the deficient performance is identified,
normally not less than 30 days prior to giving the final evaluation a t the end of the
rating period.
The supervisor should provide an employee with a mid-year review within 45 days
before or after the mid-point of the performance appraisal period. For most
employees, the mid-point is November 1, and the mid-year review should take place
between September 17 and December 16.
The mid-point for a new employee is halfway between the employee's start date and
April 30. The mid-year review should take place within 45 days before or after the
employee's mid-point. For example, if an employee starts a t the Commission on
August 30, that employee's mid-point would be January 1, and the mid-year review
should take place between November 17 and February 15.

ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                    FEBRUARY 8,2007
The supervisor and employee should sign and date Form 2494 or 2495 to
acknowledge the mid-year review.
Evaluation
The evaluation measures actual work performance against the performance criteria
established a t the beginning of the appraisal period. The supervisor assigns a rating
of "acceptable" or "unacceptable" to each performance element and a n overall rating
of "acceptable" or !'unacceptable." If an employee receives an "unacceptable" rating
for any element, the overall rating will be "unacceptable."
The employee and supervisor should meet to discuss the evaluation and sign and
date Form 2494 or 2495 to acknowledge their discussion. This meeting should take
place within 60 days after the end of the appraisal period (typically by June 30) and
the employee should receive a copy of Form 2494 or 2495.
Merit Increase
An employee who receives an overall "acceptable" rating is eligible to be considered
for a merit increase. An eligible employee has the option of writing a summary of
his or her contributions and providing it to the supervisor. The supervisor is
required to write a summary of contributions for each employee with an overall
"acceptable" rating. The supervisor also completes a transmittal form (see appendix
3) to indicate the level of contributions the supervisor believes the employee
provided ("highest quality," "high quality," "quality" or "no significant contributions
beyond an acceptable level of performance").
Enforcement's Compensation Committee (composed of senior level Enforcement
staff) reviews all performance documentation and recommends to Enforcement's
Director any proposed merit increase for each eligible employee. The Director
makes the final determination.
Merit increases are one, two or three steps. For employees already a t the top of a
step range, an equivalent cash bonus is awarded.
Suo~lementalMemoranda
Supplemental memoranda include documents describing a n employee's performance,
other than those documents specdically required in the Commission's written
policies and procedures.
Performance Improvement Plans
Employees rated "unacceptable" in a t least one performance element are normally
placed on a Performance Improvement Plan (PIP). A PIP provides a n employee with
a formal notice that he or she is performing below a n acceptable level and gives the
employee a n opportunity to improve over a period of time (usually 60-120 calendar
days). If the employee's performance does not improve to a n acceptable level, the
employee may be demoted or removed. Typically, only employees who have worked
a t the Commission for more than one year and have completed their probationary
periods are placed on a PIP.




ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                    FEBRUARY 8,2007
Reassigned and Detailed Staff
Staff who were reassigned or detailed during a review cycle should still be evaluated
based on their work over the 12-month review cycle, regardless of whether the
employee reported to more than one supervisor.
For reassignments, the new supervisor should discuss expectations with the
employee within 30 days of the reassignment. The new supervisor should obtain the
employee's "Performance Plan and Evaluation" (Form 2494 or 2495) from the former
supervisor and base the employee's year-end evaluation on input from all
supervisors to whom the employee reported during the review cycle.
For details, the original (permanent) supervisor is normally responsible for rating
the employee. The permanent supervisor should obtain input from all other
supervisors to whom a n employee reported during the rating period and base the
employee's evaluation on input from all supervisors.
S e n i o r Officers
The performance appraisal period for Senior Officers (SOs) is from October 1to
September 30 of the following year (i.e., the fiscal year).
Senior Officers are rated using a Performance Plan document. According to the
Commission's SO written policy,4 the supervisor should develop a Performance Plan
with the SO a t or before the beginning of the rating period and conduct a t least one
progress review during the rating period. The supervisor and SO should sign the
Performance Plan to document these meetings.
At the end of the appraisal period, both the SO and the supervisor are required to
develop a written summary of the SO'S contributions. The supervisor assigns a
rating to the SO of "satisfactory," "unsatisfactory," or "minimally satisfactory" for
each performance element. The supervisor and SO should sign the Performance
Plan document to note the review.
The supervisor then makes a recommendation to the Commission's Performance
Review Board (PRB) on the amount of any proposed merit increase. The PRB is
comprised of the Executive Director, the General Counsel and the Chairman's Chief
of Staff. The PRB meets to review all of the recommendations on merit increases
and submits their final recommendations to the Chairman for final approval. If the
SO being rated is a member of the PRB or reports directly to the Chairman, the
Chairman alone makes the merit increase determination.
Document Retention
Performance appraisal documentation must be retained for a defined period of time.
The National Archives and Records Administration (NARA) provides guidance on
the retention period and how documents are handled when a n employee transfers to
another Federal agency or separates.5 The Commission's Office of Filings and



4
 Securities and Exchange Commission Senior Officer Program manual, July 16,2002.
5
 NARA General Records Schedule 1, Civilian Personnel Records, Transmittal No. 12 (July
2004), §§ 1(b) and 23.
ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                        FEBRUARY 8,2007
Information Services (OFIS) is currently responsible for Commission record
retention p o l i ~ i e s . ~
New Performance Management P r o g r a m
The Executive Director informed us that the Commission's performance
management program was the subject of union negotiations and a review by the
Federal Services Impasse Panel (FSIP), and the Commission was prohibited from
making changes to the program during the negotiations and review. FSIP recently
issued a decision' requiring the implementation of changes to the performance
management program, and management has begun implementing this decision.
As part of the implementation of the FSIP decision, the SO performance plans will
be restructured and managed in the same way as,those for other employees and the
rating cycle for all employees will be the fiscal year.
In addition, OHR has been experimenting with a pilot program under which its staff
are rated on a five-level system. The program includes a written performance work
plan and individual development plan, training provisions, and a year-end
evaluation for each employee. This new program is expected to be adopted
throughout the Commission starting in fiscal year 2008.
To improve accountability, OHR plans to purchase a computerized system to
manage the appraisal process. The system is expected to help supervisors ensure
they perform all parts of the process for their staff. The system will identify steps
that need to be performed and timely remind supervisors to perform remaining steps
with staff members.



                               AUDIT RESULTS
Enforcement did not consistently perform required parts of the performance
appraisal process, especially for new, reassigned and detailed staff, Enforcement
also did not consistently retain performance documentation for the required time.
The Commission's written policies and procedures did not provide adequate
guidance on certain requirements of the performance management process and
accurately document retention requirements. The lack of adequate guidance may
have contributed to Enforcement's non-compliance.
Enforcement management and OHR's Director suggested that our findings are
typical of the Commission a s a whole. The Executive Director indicated that the
current performance management program needs significant improvements and
starting in fiscal year 2008, the Commission will adopt a new program to address its
deficiencies.
Our detailed findings and recommendations for improvement are set forth below.



6
 OFlS is in the process of being dissolved and the records retention function will move to the
Office of the Secretary.
 In re SEC and NTEU, Case No. 06 FSlP 54 (Oct. 19,2006).
ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                              FEBRUARY 8,2007
PERFORMANCE APPRAISAL PROCESS
Performance Plan and Evaluation (Form 2494 or 2495)
We found that parts of the appraisal process were not completed or were completed
late for certain employees in our sample. The following table summarizes the
results of our review of Form 2494 or 2495 for sampled employees.
                                            2005                                            2006
                        Performance       Mid-Year          Evaluationl   Performance     Mid-Year       Evaluationl
                         Planning         Review              Rating       Planning       Review           Rating
    Performed Timely         7                     13           23            10             14              24
    Not Timely               5                     8             1            8              9                1
    Not Performed            14                    7             3            10             5                1
    Incomplete
    Documentation on
    Form 249412495 *          4                2             2               0               0               2
    NlA *                      0               0             1                1              1                1
 Total                        30              30            30               29             29               29
* Refers to a Form 2494/2495 where a n item was not signed or dated by the supervisor and/or employee.
** Refers to employees who were no longer at the Commission when a n element of the performance
appraisal process was to be performed.
Enforcement was unable to locate Form 2494 or 2495 for 14 employees in our sample
of 73 (four in 2005 and ten in 2006). As a consequence, we could not determine if
Enforcement complied with the performance appraisal process for these 14
employees.
Nine of the 14 missing Forms were for separated employees and five were for
current employees. Enforcement said it discarded some Form 2494s or 2495s or
mailed them to employees after they separated from the Commission. Enforcement
officials indicated that parts of the appraisal process were conducted in some
instances, even though Form 2494 or 2495 was not available.8
          RecommendationA
          Enforcement should develop appropriate procedures to ensure all required
          performance appraisal steps are completed.
S u ~ e r v i s o r vContribution Statements
The following table summarizes our results on whether supervisors wrote a
summary of employee contributions, as required by Commission policy.

                                  Written Summary of



    Not Completed                  1                    0
    NIA *                         2                     10
I Total                  I        34           I        39        I
* N / A refers to employees who were no longer at the Commission at the time the written summary of
contributions was due.

8
    Document retention is discussed on pages 11-12.
ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                                  FEBRUARY 8,2007
Supervisory summaries were due on June 2gthof 2005 and 2006. Enforcement's
Compensation Committee initially met to recommend each employee's merit
increase on July lBthin 2005 and July 25thin 2006.9
Most of the supervisory summaries were not dated. In 2005, 11supervisory
summaries were dated, nine of which were completed by June 29th. In 2006, 12
supervisory summaries were dated, seven of which were completed by June 29th. All
except one of the dated summaries were written before Enforcement's Compensation
Committee's initial meeting. The remaining summary was written two days after
the initial meeting.
        Recommendation B
        Enforcement should develop procedures to ensure that all supervisory
        summaries of employee contributions are completed timely and dated to
        indicate when they were completed.
Mid-year Review Certifications
Each year, OHR e-mails a memorandum to DivisiodOffice Administrative Contacts
asking them to certlfy that mid-year reviews were conducted. OHR requested that
the memorandum be certified and returned by December 15,2004, and January 13,
2006, for the 2005 and 2006 review cycles, respectively.
                                                                  c
Enforcement returned the certifications to OHR after their due dates, on January
26, 2005 and January 19, 2006. In addition, the required mid-year review did not
occur for four people in our sample (all of whom were a t the Commission for the
entire review cycle), as of the dates that Enforcement certified the memoranda.
        Recommendation C
        Enforcement should develop procedures to ensure that its certfication of mid-
        year reviews is timely, and that all applicable mid-year reviews are
        conducted by the certification date.10 11
The mid-year review certification does not specifically provide for new employees
who should receive a mid-year review later than the normal time (see "Monitoring
and Feedback" section of the Background). Additionally, the certification was due or
returned before the deadline for performing the related mid-year reviews for many
new employees.
        Recommendation D
        OHR should develop procedures to ensure that mid-year reviews are

  Enforcement told us that the Committee meets more than once to review all employees and the
Committee will not make a recommendation on an employee's merit increase until all required
performance documentation is present.
10
   The implementation of OHR's automated system should make the mid-year certification
process more efficient and effective.
'I In January 2007, Enforcement changed its. mid-year review certification process by requiring all
senior offices to certify that mid-year reviews were performed for all of their staff. Prior to this,
Enforcement's administrative contact informed senior officers of their responsibility to perform
mid-year reviews and to report any exceptions. The administrative contact assumed the mid-year
reviews were performed timely unless he was notified of exceptions.

ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                               FEBRUARY 8,2007
        conducted for all new employees. For example, OHR could revise its existing
        certification to discuss mid-year review requirements for new employees
        and/or develop a separate certification.

SUPPLEMENTAL MEMORANDA

We identified two staff members for whom a supplemental memorandum was
written. The memorandum was written by the employees' second-level supervisor
and was not dated. We did not review any performance appraisal documents of
these employees to avoid interfering with ongoing investigative work within the
Office of Inspector General.
We did not find that supplemental memoranda were written for any other employees
in our sample. Enforcement's Director and other senior level Enforcement staff were
not aware of any other supplemental memoranda prepared by Division supervisors.
Enforcement management stated that supplemental memoranda are not typically
prepared.

The Commission's policies and procedures do not discuss supplemental memoranda,
and no policies expressly allow or disallow these memoranda in the performance
appraisal process. l2

EMPLOYEES WITH PERFORMANCE PROBLEMS

Enforcement management told us that supervisors are not comfortable giving
"unacceptable" ratings to their staff, especially to new employees on their one-year
probationary periods.l3 Enforcement management also told us that supervisors
sometimes do not rate probationary employees when Enforcement expects to
terminate the employees during their probationary periods. As a consequence,
employees with performance problems may not receive accurate assessments of their
performance and suggestions for improvement during their appraisal.
In the two most recent rating periods, only two employees received a n
"unacceptable7' rating on Form 2494. One was a probationary employee14 and the
rating was not shared with this employee, as Commission policy requires. This
employee was terminated during his probationary period.15 The second, a non-
probationary employee, was rated in accordance with Commission policy.
A third, non-probationary employee's Form 2494 did not reflect a rating. However,
an Enforcement rating spreadsheet indicated this employee was rated
"unacceptable." Enforcement management could not explain this inconsistency.
12
   Recommendation K refers to supplemental memoranda.
13
   Newly-appointed Federal government employees generally must serve a probationary period,
which is typically one year. The purpose of the probationary period is to provide the Government
with an opportunity to evaluate the individual's conduct and performance to determine whether
the appointment should become final.
14
   Our sample included 16 probationary employees.
15
   Although the rating was not shared with this employee, Enforcement management discussed
this employee's poor performance with him on more than one occasion prior to his separation.
ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                            FEBRUARY 8,2007
        Recommendation E
        Enforcement should develop procedures to ensure that all employees are
        rated in accordance with Commission policy and the rating is shared with the
        employee.
        Recommendation F
        OHR, in consultation with Enforcement, should provide guidance and
        training to Enforcement supervisors on rating employees with performance
        problems. The guidance should hscuss what constitutes "unacceptable"
        performance, how to document and manage performance problems, and how
        to communicate the rating to the employee.

SENIOR OFFICER APPRAISALS

We selected for review, the two most recent review cycles for Enforcement Senior
Officers (October 1, 2003 - September 30,2004 and October 1, 2004 - September 30,
2005). l6
We reviewed six of the nine Enforcement Senior Officer (SO) performance appraisals
and related documents for the cycle that ended on September 30, 2004. In each
instance, only the final year-end evaluation was documented. The "Plan" and
"Progress Review" sections were not documented, as required by the appraisal form
and the Commission's SO policy.17 Employee and supervisor contribution
statements were written in all six instances.
Performance review documents were not prepared for the cycle that ended on
September 30, 2005, because the Chairman did not approve any SO merit increases
for this cycle. While the performance appraisal process supports a merit increase for
the SOs, it also helps SOs review their performance and identify organizational
goals, expectations, objectives and accomplishments.
        Recommendation G
       Enforcement, in consultation with the PRB (the Executive Director, the
       General Counsel, and the Chairman's Chief of Staff), should develop
       procedures to ensure that the required steps of the SO performance appraisal
       process are conducted in accordance with Commission policy, even when
       merit increases are not awarded.

The SO manual states: "Periodically the effectiveness of the Senior Officer Program
will be assessed. Improvements will be implemented as appropriate."lB Because the
"Plan" and "Progress reviews" were not consistently completed for Enforcement SOs
in accordance with Commission policy, changes to the policy, appraisal process, or
16
   Performance documentation for the rating period that ended on September 30,2006 was not
available at the time of our review. In accordance with Commission policy, this documentation
should be completed by January 2007.
17
   Securities and Exchange Commission Senior Officer Program manual, July 16, 2002, pages 5
and 7.
18
   Section XIII, page 12.
ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                          FEBRUARY 8,2007
both may be necessary. The SO policy has not been assessed since it was written in
July 2002.
          Recommendation H
          The Executive Director, in consultation with other members of the PRB (the
          General Counsel, and the Chairman's Chief of Staff), should review the
          Commission's SO manual and actual practice, and consider possible
          improvements to the SO appraisal process. The manual should be revised to
          reflect any changes to the appraisal process.

DOCUMENT RETENTION
We identified the following inconsistencies between NARA's guidance on document
retention and the Commission's Personnel Operating Policies and Procedures
(POPPS) Manual: .
          NARA's guidance on document retention states that agencies should
          generally retain performance appraisal documentation for current employees
          (except SES employees) for four years. If a n employee transfers to another
          Federal agency or separates from Federal service, the records should be
          placed in the employee's OPF (Official Personnel File). Upon transfer, the
          OPF should be forwarded to the gaining agency. Upon separation from
          Federal service, the OPF should be transferred to the National Personnel
          Records Center in Missouri.19
          In contrast to NARA's four-year retention requirement, the Commission's
          POPPS Manual states that employee performance appraisals are typically
          retained for only three years. z0 Additionally, the POPPS manual states that
          performance appraisal documentation will be destroyed no later than 30 days
          after the employee separates from the Commission.21
We identified the following inconsistency between the Commission's written policy
and actual Commission practice:
          The Commission's guidance on the Performance Management Program states
          that SEC Form 24942495 should be sent to OHR each year, where it will be
          maintained in an employee's OPF for four years.22
          In practice, SEC Form 2494J2495 and related documentation is retained by
          the Divisions/Offices, as OHR no longer accepts performance documents
          unless a n employee separates from the Commission or there is an unusual
          circumstance (e.g., a n employee has a labor-relations issue).
                -               -


19
     NARA General Records Schedule 1, Civilian Personnel Records, ~r'ansmittalNo. 12 (July
2004), $9 1(b) and 23.
20
   POPPS 6-293.C, September 9, 1991, § Il(a), pages 4-5. According to the Associate
Executive director for Human Resources, this manual will be replaced by mid 2007 with human
capital directives.
   POPPS 6-293.C, September 9, 1991, $1 I(c), page 5.
22 Issued through a memorandum to all employees from Jayne L. Seidman, dated May 2003, part
2-5, page 8.
EFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                            FEBRUARY 8,2007
Our sample included 14 sets of performance documents related to Enforcement staff
who left the Commission during the two most recent appraisal periods. Performance
documents were not available in nine of 14 instances.
Enforcement's Administrative Contact retains performance documents for current
employees while they are still with Enforcement. Three to four months after an
employee leaves the Commission, Enforcement may discard Forms 2494 or 2495
that do not contain an evaluation because the employee left before the evaluation
due date. Enforcement sometimes mails the former employee his or her
performance documents. This practice does not comply with NARA's guidance.
       Recommendation I
      OHR should update the Commission's guidance on retention of performance
      management documentation to conform to NARA's guidance and current
      practice. OHR should issue the revised guidance and provide appropriate
      training to the Commission's Divisions and Offices.
       Recommendation J
      Enforcement should implement procedures to retain performance
      documentation of separated employees for the appropriate time period.


OHR GUIDANCE

We found OHR's written guidance on the performance appraisal process difficult to
understand. OHR staff agreed that the guidance can be improved and assisted us in
interpreting the guidance.
OHR staff also provided us with adhtional information not included in the
Commission's written procedures. For example,
      Staff who start a t the Commission during a review cycle should have a mid-
      year review performed a t a later time than staff who were present for an
      entire review cycle (see the Background section).
      When a n employee is reassigned, the new supervisor should discuss the
      expectations for the new position with the employee within 30 days of the
      reassignment. The new supervisor should obtain the "Performance Plan and
      Evaluation" (Form 2494 or 2495) from the former supervisor and base the
      employee's year-end evaluation on input from all supervisors to whom the
      employee reported during the review cycle.
      For reassigned and detailed staff, the timing of the mid-year evaluation is
      unaffected by the reassignment or detail, provided the employee was a
      Commission employee for the entire rating cycle.
      When a supervisor separates from the Commission, the supervisor should
      prepare a memorandum for each employee he or she supervised for use in the
      employee's evaluation.
      Probationary employees are not generally placed on PIPS. An employee
      typically will have worked for a t least one year before a PIP is used.

ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                  FEBRUARY 8,2007
      There is no policy on whether supplemental memoranda (see Background)
      can be used in the performance management process, and under what
      circumstances they might be appropriate and when they must be submitted.
      Recommendation K
      OHR should update the Commission's performance management guidance to
      address the issues listed above and provide appropriate training to the
      Commission's Divisions and Offices.




ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)              FEBRUARY 8,2007
                                               FORM 2494                                                APPENDIX 1




                         U. S, SemriZlw and ExGtrartgs Qarnmisian
                                Perfaamranee Plan and Ewalwrtbn

         PTmployoe fn&m&cwr                                         7scrrfarmanw Evaluatfon Plsirbd
         Hme                                                               From                    fa
                                                             &&&              &g         lu'onth         m
         33th


         Ukislorn'MceIl iekd Office
                                                    -/-- Cnt reiod2sdonnaneeC$Cak8to~i
                                                                    Pet   by Cauu~&J; tjyiir; Evaltrrticlt~

                                                                                   Perid

                         GI&< 'Skp
         Pay Pfet~,k $tet~,                                         fietail ,'frorxn:      fc,:           3

         tx-          --                                            t"$uerrspeclti;


                              Ce#tkfiatiarrof ParfiorntlncsAppralwt Frotesr
        Potbr~rtcawWrtiirbitry        MXdcwrtn 5c it.3pg01me I:6~k?'lfpa<$. pworri-ancb.wa$tzal?n
                                                                                                pwbdt
        Enac.iu~s'ir3iqitu.utu                            tf;rlti


        Yuperrmil&3rx 3tbaal Wdinatu~e                     Urs9.e

        ABd-Year Rwlew :to toe held m r        dqs a~   ~mtd+tnt    a l e prrtmancs ebtatuoaon =me$
        E~@oqab,Sigjnxure                                  t3at.p

        S q - ~ e m k a R rXi &
                              ~ a t Spa-lire




ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                                            FEBRUARY 8,2007
                                                     FORM 2494                                            APPENDIX 1




       Knowfedge of ReId or Owupation iWaiaiarrv~;a id. +'iiilr k w
                                                           te ppamrrnin_sautles
       exceptians, de;nearidrates tecdtaia' MifIs t3&B@ntii?tl
       sf the poritisn. including &mMe:zlgcvf zfenasntlava-%stil&at&.
       tctyulalioto. rubs. mWes. pittzeeJutw. wad Cclr~rol~yiea.


                                                 -
       Ptannrng isnu umruztng WdrK W I ~ ItImt excepaans mogmnsand
       s n W s ~mbiems.mads cbjectPves, and c;i7widmw o w s VAWn
       plannl~gi%crkassQnn~rt-$s. =Crc$dZy uses t me and -cscurw to                                  23    C1
       pmducs z quaKry p W c t Mrh a3proprlal-eguicanctl a d ccm&ietss
       assignments warn ag-em upw. time rmnrs.

                                  -
       ErrnutIan evr Du,te4 With lfi~4cxcrpvttnns,          mrxslltgbty nnn mrr;Rtw
       .3lnaty7(?.4;inn mcearcf?c,zn%~g?mmt%           -Ta-twary fipPICIfr f i ~ ? ~ - z ? m q
       *ro%lr?C:ac:  ~ r i itwhnlm
                             l     ~ % # : I wIn srmcrtn pcrYmm alMcs :  n tnc p0s'tln"r
       :nan axepzamt mamtr. 7nml w l K pmdect~meet esmkhtt3 n e 3 ,
       :erEcr ispp-opnau aatenlton to aetsrl, am s e wzeil o r ~ m w U .

       Cornmutiloattuns 3ral arrd w illert z,rt%rr:utricaiit:f~t;        $uilifw i i g e f t ~ ; ~
       nr?)nc4lvcsm n t~~Itn fcc?~c:xcq?lfaw.   n-(: ctmr. mnrrsr: \v??tiwtpn!7en,
                                y cutrecl. wid app~uprialelur (la&irrte~i$&c4
       % w a . e , grarrlrz~aliwl
       suderrw. Ftquiiwl pruwdr~alirtbe: aS~*?it;       v;i3& I: #leu.tiit a ~ exkr
                                                                                d nd
       wrrs3luwtdesi la?uiilerperlu a-ey'ttrtma~iy~tlsportsivelv %tier i t t d t ; ul
       Ui%e iilifiuid.mlt;ui e!itil;es-. Ke*'s lt~tftitre'ltjliesa:& ri~n;*tltt~rre.~L
       ~pprlwd    allr?lhHnl F ~ P . ..?Fnn~c-%
                                         .         sad prn&:itm!i ctrcrtcl
                                                                         O
                                                                         X




ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                                                    FEBRUARY 8,2007
                                                     FORM 2495                                                   APPENDIX 2




                                U. S. Securitlar and Eacchangfo Commksion
                                               Performan- Plan and IEva4tratfon
                                                      (For Supewtsors)
         ~ m p m firtronnlrtlon
                  e                                                        ~ltrrammce~mj~stlotr
                                                                                             P ~ O W
         Marne                                                                    From                      To
                                                                       &t&vc.??!f&Jg&
         WtlB


         D t y i ~ l ~ W O t f l c I e ~ F Qtltbo
                                           lIW                J+ - f           I1rrto?marw*.wItlctiim t >+rrrod
                                                                          kni~r~r

         PW P~M.58rl$$,G I * ~ + S
                                 . WP                                     no:ni>   [~I*>III         T<I              :f


         S;C-                                                                  :t:pr::.ify?
                                                                          ntia:~


                                        Gertifiatim of PcrfamrJnceAppraise) Praetiw
         PdF1QTtYIRtlOgPIltbOtlOtl p~tw t>aiJd d i i t t $0 dp.w u*1t.ebe#:ga't;u of IIw pnfw::tutrc.r crfitlu~tivr~
                                                                                                                  wriuii)
         fir:1:itsjirxt Sii~:m(trtr:



                     rig otttami scawircltm
         ~;t.pewnnrl-g~~




         Xr;~~nv~;ort'~at~nq
                       c~ttdrm~
                              ~t~~wtun!




ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)                                                         FEBRUARY 8,2007
                              FORM 2495                 APPENDIX 2




ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)   FEBRUARY 8,2007
                                                                      APPENDIX 3


                                  Merit Pay

                       Supervisory Transmittal Form




Employee Name :



Supervisor Name:


Supervisor Recommendation: This employee has:

          made contributions of the highest quality

          made contributions of high quality

          made contributions of quality

          made no significant contribution beyond an acceptable level of
          performance

   Supervisor's Signature                                  Date



This recommendation is provided as guidance t o the Compensation
Committee and does not correlate t o a level of merit pay increase.



   Compensation Committee Recommendation:



            Merit Increase(s)




ENFORCEMENT PERFORMANCE MANAGEMENT (AUDIT No 423)             FEBRUARY 8,2007
